            versight

            eport

         REPORT ON QUALITY CONTROL REVIEW OF
           PRICEWATERHOUSECOOPERS LLP AND
          DEFENSE CONTRACT AUDIT AGENCY FOR
           OFFICE OF MANAGEMENT AND BUDGET
           CIRCULAR NO. A-133 AUDIT REPORT OF
        MASSACHUSETTS INSTITUTE OF TECHNOLOGY
             FISCAL YEAR ENDED JUNE 30, 1999

Report Number D-2001-6-004           March 22, 2001


             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions For Future Evaluations

  To suggest ideas for or to request audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFDA                  Catalog of Federal Domestic Assistance
DCAA                  Defense Contract Audit Agency
FFRDC                 Federally Funded Research and Development Center
MIT                   Massachusetts Institute of Technology
OMB                   Office of Management and Budget
PwC                   PricewaterhouseCoopers, LLP
                                                                      March 22, 2001
Controller
Massachusetts Institute of Technology


Partner-in-Charge
PricewaterhouseCoopers, LLP


Director
Defense Contract Audit Agency


SUBJECT: Report on Quality Control Review of PricewaterhouseCoopers LLP and
         Defense Contract Audit Agency for Office of Management and Budget
         Circular A-133 Audit Report of Massachusetts Institute of Technology,
         Fiscal Year Ended June 30, 1999
         Report No. D2001-6-004 (Project No. D2001-OA-0015)

        We are providing this report for your review and comment. The firm of
PricewaterhouseCoopers LLP (PwC) and the Defense Contract Audit Agency (DCAA),
performed the single audit for the Massachusetts Institute of Technology (MIT), a
private, independent, non-profit research university located in Cambridge,
Massachusetts. The audit is required by the Office of Management and Budget (OMB)
Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations”
(Circular A-133). MIT expended approximately $721 million against Federal awards,
representing $391 million for the DoD and $330 million for other Federal agencies in
the fiscal year ended June 30, 1999.

Quality Control Review Objective. As the Federal cognizant agency for MIT, the
Office of the Inspector General, DoD, performed a quality control review to determine
whether the FY 1999 report that MIT submitted to the Single Audit Clearinghouse met
the applicable reporting standards and whether PwC and DCAA conducted the audit as
required by applicable standards and the Circular A-133. See Appendix A for a
discussion of the scope and single audit requirements.

Review Results. PwC complied with the Circular A-133 in performing the audit of the
financial statements. MIT complied with all Circular A-133 requirements except the
Schedule of Expenditures of Federal awards did not identify all Type A programs (see
finding A). DCAA did not coordinate the audit of classified programs at Lincoln
Laboratory to ensure that all programs were included in its review (see finding B). In
addition, the DCAA Boston Branch Office did not adequately perform the testing of
internal controls over the Reporting compliance requirement and the Special Tests and
Provisions compliance requirement (see finding C).
Finding A. Identification of Major Federal Programs. MIT did not task PwC or
DCAA to perform a risk-based analysis of all Federal programs at the institute and, as
a result, a Type A1 MIT program was not identified or audited for FY 1999.
The Circular A-133 defines a Federal program as all Federal awards to a non-Federal
entity assigned a single number in the Catalog of Federal Domestic Assistance (CFDA).
When no CFDA number is assigned, all Federal awards from the same agency made
for the same purpose should be combined and should be considered as one program.
Another example of Federal programs, referred to as clusters, are Federal awards from
different agencies made for the same purpose. Circular A-133 identifies three different
clusters: Research and Development, Student Financial Aid, and “Other clusters.”
The Circular A-133 requires the auditor to use a risk-based approach in determining
which Federal programs are to be audited. The auditor uses this approach to classify
Federal programs as either Type A or Type B. The distinction between Type A and
Type B is the dollar threshold, which fluctuates, depending on the total amount of
Federal expenditures for the year. Type A programs are above the threshold and
Type B programs are below. In the case of MIT, $3 million was the dollar threshold
for FY 1999. The next step in the analysis is to determine whether the Federal
programs are high-risk or low-risk. All Type A Federal programs determined to be
high-risk are classified as major programs and must be audited.
MIT held a pre-audit meeting in July 1999 with PwC and DCAA to assign audit
responsibilities for the FY 1999 audit. MIT presented two program clusters as Type A,
high-risk (major) programs: Student Financial Aid and Research and Development.
MIT assigned responsibility for audit of the Student Financial Aid program to PwC,
and DCAA agreed to audit the Research and Development program. MIT prepared a
Schedule of Expenditures of Federal Awards that identified individual grants and
contracts within each of these major programs. The Schedule contained a third section
of contracts and grants totaling $19.4 million that did not fall within either of the major
programs, and MIT identified these as “Non-Major Programs.”
Within the section on Non-Major Programs was a Federal program, CFDA 47.076,
that had FY 1999 expenditures totaling $4.7 million. This program exceeded the
$3 million threshold and should have been identified for audit purposes as a Type A



1
    A Type A program at MIT is one that exceeds a dollar threshold of $3 million.
                                                     2
Federal program. This Type A program might be classified as a major program but
this will not be known until MIT designates an auditor to perform a major program
determination for its FY 1999 audit.


Recommendations
A. We recommend that the Controller, Massachusetts Institute of Technology:

      1. Designate an auditor to perform a complete major program
determination for the FY 1999 audit in compliance with Office of Management and
Budget Circular A-133.

MIT Comments. MIT will engage PwC to perform a major program determination
for the FYs 1999 and 2000 audits in compliance with OMB Circular A-133 (see page
13).

       2. Obtain an Office of Management and Budget Circular A-133 audit of all
major programs not audited in its fiscal year 1999 report submitted to the Federal
clearinghouse.

MIT Comments. MIT agreed to obtain any appropriate audit coverage necessary after
performing the major program determination identified by Recommendation A.1.

        3. Designate one auditor with the responsibility for major program
determination in all future Office of Management and Budget Circular A-133
audits.

MIT Comments. MIT will engage PwC to perform a major program determination
for future OMB Circular A-133 audits.

Finding B. DCAA Audit of Lincoln Laboratory Classified Contracts. DCAA did
not adequately plan the review of internal controls for the Research and Development
cluster at Lincoln Laboratory to ensure that all classified programs were included in the
audit and that all applicable compliance requirements were reviewed. This condition
occurred because the DCAA Boston Branch Office did not provide the DCAA Field
Detachment with the necessary information for the reconciliation of Federal
expenditures applicable to classified programs. In addition, the DCAA Boston Branch
Office did not task the DCAA Field Detachment to determine which of the
Circular A-133 compliance requirements applied to classified programs during
FY 1999, and to test the internal controls and compliance over those requirements. As

                                            3
a result, $7.8 million of the $57 million (approximately 13.8 percent) of the direct costs
related to classified contracts were not audited by the DCAA Field Detachment. In
addition, there was no testing of the internal controls and compliance over some
requirements related to classified contracts.
The Circular A-133 requires that the audit shall cover the entire operations of the
auditee. The DCAA Field Detachment provides audit services to procurement offices
that have classified contracts. The DCAA Boston Branch Office relied on the Field
Detachment to perform the audit of direct costs within the classified programs (all part
of the major program cluster, Research and Development) at Lincoln Laboratory.
However, the DCAA Boston Branch Office did not provide the Field Detachment with
the total dollar amount of Federal expenditures that applied to classified programs.
Therefore, the Field Detachment did not know the universe they were to audit. In
addition, the DCAA Boston Branch Office did not compare the amount that the Field
Detachment reported for classified Federal program expenditures to the amount
reported in the Circular A-133 report. As a result, DCAA did not audit $7.8 million
of the $57 million related to classified programs. The Field Detachment is taking steps
to gain access to all classified programs at Lincoln Laboratory and to determine the
correct amount of direct cost Federal expenditures attributable to Lincoln Laboratory
classified programs.
The Circular A-133 requires auditors to plan the testing of internal control over major
programs to support a low assessed level of control risk for the assertions relevant to
the compliance requirements for each major program and to test compliance with the
internal controls. There are 14 compliance requirements that might be determined to be
relevant to any major program (see list at Appendix A). The DCAA Boston Branch
Office tasked the Field Detachment to review “allowable costs/cost principles,” and
“activities allowed/unallowed” requirements for the classified programs at Lincoln
Laboratory. However, the DCAA Boston Branch Office did not instruct the Field
Detachment to determine whether the other compliance requirements applied to the
classified programs at Lincoln Laboratory. The DCAA Boston Branch Office believed
that it was not necessary to review any of the other applicable compliance requirements
because the system of internal controls over classified programs would be the same as
the system of internal controls over unclassified programs. However, because the
DCAA Boston Branch Office does not have access to the classified programs, it could
not know whether the internal controls for the untested compliance requirements over
classified programs are the same as those identified and tested for unclassified
contracts. In addition, the DCAA Boston Branch Office should have relied on the Field
Detachment to determine the materiality of a noncompliance issue related to classified
contracts.



                                            4
Recommendations
B. We recommend that the Manager, Defense Contract Audit Agency Boston
   Branch Office:

       1. Reconcile the amount of expenditures related to classified programs
reported in the Schedule of Federal Expenditures to the amount reported by the
Defense Contract Audit Agency Field Detachment for the FY 1999 audit.

DCAA Comments. DCAA completed the reconciliation of Lincoln Lab’s classified
contract costs and provided us a copy on March 1, 2001 (see page 15).

       2. Task the Defense Contract Audit Agency Field Detachment to determine
which compliance requirements are applicable for FY 1999 for all classified
contracts at Lincoln Laboratory and to perform the required testing.

DCAA Comments. DCAA Boston Branch Office and the Field Detachment prepared a
matrix documenting each organization’s responsibilities for single audit requirements
and provided a copy to us on March 1, 2001. Also the Field Detachment was tasked to
perform additional audit work related to compliance requirements.

       3. Instruct the Defense Contract Audit Agency Field Detachment, in all
future Office of Management and Budget Circular A-133 audits, to determine
which requirements apply to classified contracts.

DCAA Comments. The Boston Branch Office and Field Detachment will annually
prepare a matrix similar to that discussed on Recommendation B.2. which will address
single audit requirements (including classified contrcts) applicable to Lincoln
Laboratory’s R&D program cluster.

Finding C. Review of Internal Control Over Compliance at Lincoln Laboratory.
The DCAA Boston Branch Office did not meet the requirements of Circular A-133
related to the Reporting compliance requirement and the Special Tests and Provisions
compliance requirement for unclassified work performed at Lincoln Laboratory. This
condition occurred because the DCAA Boston Branch Office performed procedures for
the Reporting compliance requirement that did not fulfill the planned audit steps and
because the DCAA Boston Branch Office did not perform procedures as planned for the
Special Tests and Provisions compliance requirement. As a result, Government
agencies have no assurance that Lincoln Laboratory is managing the programs in
accordance with Federal regulations and sub-sponsoring agreement terms.


                                          5
To facilitate a long-term relationship between the Government and an FFRDC,
establish the FFRDC mission, and ensure a periodic reevaluation of the FFRDC, the
Government and the FFRDC prepare a written agreement of sponsorship when the
FFRDC is established. Sub-sponsoring agreements are agreements with other
Government agencies to perform Research and Development within the scope of the
sponsoring agreement. The sponsoring agreement at Lincoln Laboratory exists with the
Air Force. For FY 1999, work performed under the Air Force sponsoring agreement
amounted to $287.4 million of unclassified Research and Development expenditures at
Lincoln Laboratory. Of the $287.4 million, $194.7 million, or approximately
68 percent, was expended through sub-sponsoring agreements with other Government
agencies.
The DCAA Boston Branch Office review of internal controls identified audit steps
related to testing of sub-sponsoring agreements for the Reporting requirement and the
Special Tests and Provisions requirement. The purpose of testing to the sub-sponsoring
agreement level is to provide feedback to Government agency program managers
regarding the cost management of the programs under sub-sponsoring agreements.
However, the DCAA Boston Branch Office did not perform adequate procedures to
fulfill the audit steps for either compliance requirement.
Reporting Requirement. For the Reporting requirement, DCAA Boston Branch
Office personnel relied on a sub-sponsor questionnaire, sent out by the Air Force,
which requested comments on satisfaction with financial and technical reporting.
However, a customer feedback survey is not relevant evidence to support the
conclusion that Lincoln Labs was in compliance with reporting requirements for sub-
sponsors. The objective of the reporting requirement is to determine that financial
reports include all activity of the reporting period and are supported by accounting
records. This is generally accomplished by verifying report content to Lincoln Lab
books and records. The working papers indicated that the DCAA Boston Branch Office
relied solely on the results of this questionnaire to satisfy the reporting requirement
objectives. Without further testing, the DCAA Boston Branch Office could not
determine the validity of information at the sub-sponsoring agreement level. As a
result, the DCAA Boston Branch Office did not fulfill the audit steps related to the
Reporting requirement.
During our review, we asked the DCAA Boston Branch Office to determine whether a
reconciliation of public vouchers or other reports had been done during the incurred
cost audit that would satisfy the Reporting requirement objective. DCAA Boston
Branch Office personnel demonstrated that during the incurred cost audit they had
reconciled the total contract costs to the books and records. The reconciliation
indicated that although adequate testing was not conducted, the financial information
related to the Air Force contract was accurate.

                                          6
Appendix A. Quality Control Review Process

Scope and Methodology
    We conducted a quality control review of the PricewaterhouseCoopers, LLP,
    and DCAA audit of the Massachusetts Institute of Technology for the fiscal year
    ended June 30, 1999, and the resulting reporting submission to the Single Audit
    Clearinghouse received on April 12, 2000. We performed our review using the
    1999 edition of the “Uniform Quality Control Guide for the A-133 Audits” (the
    Guide). The Guide applies to any single audit that is subject to the requirements
    of OMB Circular A-133, revised June 24, 1997. The Guide is the approved
    checklist of the President’s Council on Integrity and Efficiency for performing
    the quality control review procedures. We reviewed the audit as required by the
    Circular A-133, generally accepted government auditing standards issued by the
    Comptroller General of the United States, and generally accepted auditing
    standards issued by the American Institute of Certified Public Accountants. Our
    review was conducted from October 2000 through January 2001 and covered
    areas related to the financial statements and the one major program, research
    and development. As the cognizant audit agency for MIT, we focused our
    review on the following qualitative aspects of the single audit:

       •   Qualifications of auditors

       •   Independence

       •   Due professional care

       •   Quality control

       •   Planning and supervision

       •   Internal controls and compliance testing

       •   Schedule of Expenditures of Federal Awards

       •   Schedule of Findings and Questioned Costs

       •   Data Collection Form



    In conducting the review, we reviewed all working papers prepared by the PwC
    and DCAA auditors, discussed the audit with the auditor and MIT cognizant
    personnel, and retested selected audit procedures.



                                        8
Prior Quality Control Reviews
Since January 1997, we have performed 10 quality control reviews of Coopers &
Lybrand, 1 quality control review of Pricewaterhouse, and 4 quality control reviews of
PricewaterhouseCoopers. In 4 of the 15 reports, we identified 6 deficiencies resulting
in findings and made recommendations. In addition, 3 of the 15 reports contained 7
conditions that were reported and suggestions made for improvements.

Single Audit Requirements

The Circular A-133 establishes policies to guide implementation of the Single Audit Act
of 1996 (Public Law 98-502) amendments and provides an administrative foundation
for uniform audit requirements for non-Federal entities that administer Federal awards.
In addition, Circular A-133 serves to ensure that Federal departments and agencies rely
on and use the audit work to the maximum extent practicable. To meet the intent of the
law and Circular A-133, a complete reporting package on each single audit is submitted
to the Single Audit Clearinghouse from the auditee (non-Federal entity) that includes
the following:

   •   Data collection form certified by the auditee that the audit was completed in
       accordance with the Circular A-133;

   •   Financial statements and related opinion;

   •   Schedule of Expenditures of Federal Awards and related opinion;

   •   Report on internal controls over compliance and on compliance with laws,
       regulations, and the provisions of contracts or grant agreements, and related
       opinion on compliance of major programs; and

   •   Schedule of Findings and Questioned Costs.

OMB also issues a Compliance Supplement (the Supplement). The Supplement assists
the auditors in determining the audit scope of the Circular A-133 requirements for
review of internal control. For each compliance requirement, the Supplement describes
the objectives of internal control and certain characteristics that when present and
operating effectively may ensure compliance with program requirements. The
Supplement gives examples of the common characteristics for the five components of
internal controls (control environment, risk assessment, control activities, information



                                           9
and communication, and monitoring) for each compliance requirement. The following
14 compliance requirements applicable to the various Federal programs are identified in
the Supplement:

A.      Activities Allowed/Unallowed*      H.     Period of Availability of Federal Funds
B.      Allowable Costs/Cost               I.     Procurement and Suspension and
          Principles*                               Debarment*
C.      Cash Management*                   J.     Program Income
D.      Davis-Bacon Act                    K.     Real Property Acquisition/Relocation
E.      Eligibility of Federal Funds*               Assistance
F.      Equipment and Real Property        L.     Reporting*
          Management*                      M.     Subrecipient Monitoring*
G.      Matching, Level of Effort,         N.     Special Tests and Provisions*
          Earmarking*


     * Identifies those compliance requirements applicable to MIT




                                           10
Appendix B. Report Distribution




Mr. Michael Bowers                     National Audit Managers - Non-Federal
MIT Audit Division                      Audits
Building E19-655j                      HHS OIG National External Audit
77 Massachusetts Avenue                 Resources
Cambridge, MA 02139-4307               Lucas Place
                                       323 West 8th Street, Room 514
Mr. John Mattie, Partner               Kansas City, MO 64105
PricewaterhouseCoopers, LLP
One International Place                U.S. Department of Transportation
Boston, MA 02110                       Office of the Inspector General JA-20
                                       400 7th Street, SW
Director                               Room 9228
Defense Contract Audit Agency          Washington, DC 20590
8725 John J. Kingman Road
Suite 2353                             NASA Office of the Inspector General
Fort Belvoir, VA 22060-6219            NASA Headquarters, Code W
                                       Washington, DC 20546-001
Director, Non-Federal Audits
Office of the Inspector General        Chief, Office of Naval Research
U.S. Department of Education           800 North Quincy Street
Wanamaker Building                     Arlington, VA 22217-5660
100 Penn Square East. Suite 502
Philadelphia, PA 19107

U.S. Department of Energy
Office of the Inspector General
ATTN: Single Audit Contact
1000 Independence Avenue, SW
IG-33, Room 5A-193
Washington, DC 20585




                                  12
Review Team Members
This report was prepared by the Deputy Assistant Inspector General for Audit Policy
and Oversight, Office of the Assistant Inspector General for Auditing, DoD. Personnel
of the Office of the Inspector General, DoD, who contributed to this report are listed
below.

Wayne C. Berry
M. Thomas Heacock
David H. Griffin
Laura A. Rainey
Janet Stern
Ashley Harris
